<html>
<title> - A ROADMAP FOR HACKERS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  A ROADMAP FOR HACKERS?--DOCUMENTS DETAILING HEALTHCARE.GOV SECURITY
                            VULNERABILITIES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2014

                               __________

                           Serial No. 113-141

                               __________

Printed for the use of the Committee on Oversight and Government Reform
         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                 --------

                        U.S. GOVERNMENT PRINTING OFFICE

90-891 PDF                     WASHINGTON : 2014
_____________________________________________________________________

                      For sale by the Superintendent of Documents,
        U.S. Government Printing Office Internet: bookstore.gpo.gov
     Phone: toll free (866) 512-1800; DC area (202) 512-1800
                   Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


                 COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland,
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT,
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director



                             C O N T E N T S

                              ----------
                                                                   Page
Hearing held on January 28, 2014.................................     1

                                APPENDIX

Memo from James Kerr to Marilyn Tavenner, submitted by Chairman
  Issa...........................................................    10


  A ROADMAP FOR HACKERS?--DOCUMENTS DETAILING HEALTHCARE.GOV SECURITY
                            VULNERABILITIES

                              ----------


                       Tuesday, January 28, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:05 a.m., in Room
2154, Rayburn House Office Building, Hon. Darrell E. Issa
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan,
Jordan, Chaffetz, Walberg, Lankford, Amash, Gosar, Meehan,
DesJarlais, Gowdy, Farenthold, Massie, Collins, Meadows,
Bentivolio, DeSantis, Cummings, Maloney, Norton, Tierney,
Lynch, Cooper, Connolly, Speier, Cartwright, Duckworth, Davis,
and Lujan Grisham.
    Staff Present: Brian Blase, Senior Professional Staff
Member; Molly Boyl, Deputy General Counsel and Parliamentarian;
Lawrence J. Brady, Staff Director; Joseph Brazauskas, Counsel;
Daniel Bucheli, Assistant Clerk; Caitlin Carroll, Press
Secretary; Sharon Casey, Senior Assistant Clerk; John Cuaderes,
Deputy Staff Director; Adam P. Fromm, Director of Member
Services and Committee Operations; Linda Good, Chief Clerk;
Meinan Goto, Professional Staff Member; Tyler Grimm, Senior
Professional Staff Member; Ryan M. Hambleton, Senior
Professional Staff Member; Frederick Hill, Deputy Staff
Director for Communications and Strategy; Christopher Hixon,
Chief Counsel for Oversight; Michael R. Kiko, Legislative
Assistant; Mark D. Marin, Deputy Staff Director for Oversight;
Ashok M. Pinto, Chief Counsel, Investigations; Laura L. Rush,
Deputy Chief Clerk; Sarah Vance, Assistant Clerk; Peter Warren,
Legislative Policy Director; Rebecca Watkins, Communications
Director; Tamara Alexander, Minority Counsel; Susanne Sachsman
Grooms, Minority Deputy Staff Director/Chief Counsel; Jennifer
Hoffman, Minority Communications Director; Chris Knauer,
Minority Senior Investigator; Julia Krieger, Minority New Media
Press Secretary; Elisa LaNier, Minority Director of Operations;
Una Lee, Minority Counsel; Juan McCullum, Minority Clerk; Dave
Rapallo, Minority Staff Director; Valerie Shen, Minority
Counsel; Mark Stephenson, Minority Director of Legislation; and
Cecelia Thomas, Minority Counsel.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental
principles. First of all, Americans have a right to know what
they get from their government and how the money is spent. And
second, they deserve an efficient, effective government that
works for them.
    Our duty on the Oversight and Government Reform Committee
is to protect these rights. Our solemn responsibility is to
hold government accountable to taxpayers because taxpayers have
a right to know what they get from their government. Our job is
to work tirelessly, in partnership with citizen watchdogs, to
deliver the facts to the American people and bring genuine
reform to the Federal bureaucracy.
    Before I make my opening statement, it is the chair's
intent to go into an executive session in order to protect any
items that may be disclosed as to vulnerabilities of the Web
site that as of today may or may not have been fully mitigated.
So I would advise all staff, members, and the audience that
once we go into executive session, we will only have cleared
personnel. For members it means stay here. For staff what it
means is that you will be asked to leave the room, go back out,
sign back in, and be recorded as here.
    Additionally, there are numbered packets for information
here at your desk. I would admonish all members that these
documents are not to be removed. They are committee documents,
but they are not personal documents. So you may use them and
read them here during the session, they will be available to
members and designated staff, but not to be removed. No copies
are to be made, and they are not to be removed.
    Lastly, these are unclassified documents. They have
absolutely no protection under classification to our knowledge.
Notwithstanding that, it is our obligation to treat these as
potentially sensitive until on a committee basis we are quite
comfortable that release would have no adverse effect on the
ability of the Web sites to remain up and unhacked.
    If there are any questions prior to going to executive
session, members may ask them, but I advise that they ask staff
beforehand so that we not waste anyone's time, since this is
not an ordinary procedure, but a necessary procedure.
    I will now recognize myself for an opening statement.
    Today's hearing will focus on several remaining questions
surrounding the security of HealthCare.gov. In particular, what
security risks and concerns were present when the Obama
administration decided to launch HealthCare.gov on October 1st;
what is being done to fix the critical security risk Web site
users are potentially still facing; and what limitations are
there on the latest security testing?
    When Americans submit their sensitive personal information
to HealthCare.gov or, I might add, when government takes
sensitive information, including your IRS information, and
makes it available through a Web site to outsiders, they
deserve to know that it is safe from hackers, bad actors, and
security glitches. The possibility of security breach is not
some vague, distant concern. It is a real and tangible threat
that could affect millions. Private companies devote entire
departments to bolstering their online security. They
understand the threat of cyber attack is always present and
that the consequences of a successful cyber attack can be
devastating.
    Sadly, the recent security breach at Target, Neiman Marcus,
and other companies which have resulted in millions of
Americans having their credit card information compromised is
an illustration of just how dangerous an attack can be.
    The Department of Health and Human Services has repeatedly
assured the American public that their sensitive, personally
identifiable information transmitted by HealthCare.gov is safe
and secure, but because officials authorized the launch of the
Web site full of functional errors, Americans have deep
skepticism that the site was, in fact, secure. Indeed,
documents obtained by this committee by subpoena, around the
Health and Human Services, in spite of our repeated attempts to
get the information from its source at Health and Human
Services, help the committee show that why stopping--security
officials at CMS had recommended this site be delayed, not
launched, or launched only in part, but CMS officials went
ahead anyway, and it is clear that they knew the risk.
    Under current law it is possible to launch a site by simply
saying that an executive within the administration of the right
level has the ability to accept the risk. That current law
allows an administration official to accept the risk or almost
the assurance that American people's personal identifiable
information will be compromised. There is no protection against
a judgment call that the risk of billions of dollars, trillions
of dollars, the entire economy can, in fact, be waived by an
administration official, meaning there is no standard other
than the acceptance of risk.
    Moreover, 11 weeks after the site is launched, no
independent security testing was conducted. Contrary to
statements made by Secretary Sebelius at a congressional
hearing, independent security testing did not resume until
December 9, 2013. When testing did resume, MITRE, the
contractor performing the testing, was unable to test half of
the functions of the Web site.
    Even with the limited scope of testing, MITRE found a high
risk that allowed users to access system documents belonging to
other users, which could result in the exposure of privileged
information to unauthorized individuals. MITRE Corporation
found other serious vulnerabilities that would threaten users
of HealthCare.gov which have not been shown to the public.
These vulnerabilities only reinforce the need for answers,
which I intend to pursue.
    Since December 15, when the administration offered a
meeting with Secretary Sebelius and I flew back during a
district work period, I have repeatedly tried to have HHS
engage this committee to discuss the security testing
documents. I even went so far, again I say, as to fly back to
D.C. during the Christmas recess just to meet with Secretary
Sebelius. Once back, even though she was in town, she declined
for 2 days in a row to offer a meeting time, instead offering a
junior level staff briefing.
    Until this point, the administration had not made a good
faith effort to facilitate a meeting. However, I am pleased
that HHS has sent a knowledgeable representative here today so
that we can finally have at least the beginnings of a
conversation. We are joined today by a top information security
officer at the Department of Health and Human Services, as well
as an official from MITRE, the company hired by Health and
Human Services to conduct the security control assessments of
HealthCare.gov and its many components.
    Again, because of the sensitive nature of the security
testing documents, we have handled them carefully to ensure
sensitive technical information does not end up in the wrong
hands, and I will insist that our colleagues continue to
respect that.
    I must, in closing, share with the American people a
personal sensitivity. I believe these documents do reflect
ongoing potential loss of personally identifiable information
belonging to the American people. However, if I am to take the
administration at their word, there are no vulnerabilities
unmitigated. Therefore, these documents are not a hacker's
access to your personal information, and yet, when asking for
briefings, I get told that they have to be closed and in fact
that these documents cannot be released.
    The administration cannot have it both ways. They can't
both say these documents represent completely mitigated
vulnerabilities and then say, but they are a pathway, so they
can't be released. It is this committee's intent to err on the
side of the assumption that the administration continues to lie
about the site being safe and secure. We can find no other
basis but to assume that they were lying about the
vulnerabilities on the day they went live on October 1st and
that they are still lying.
    I don't use the word lie without real forethought. You
cannot continue to tell people there is no problem; there was a
problem on October 1st. You cannot tell people they have been
mitigated, and then tell them, but don't release the documents
because it is a pathway for hackers.
    So I will assume that the truth is the site was vulnerable
on launch date, they went ahead with known vulnerabilities, and
that they continue to have unknown areas that could cause
information to be made available outside of those having a
right to. We can take no other assumptions. I hope in the long
run we find that it was far less than it appeared to be. But
with that I recognize Mr. Cummings for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I hope
that our witnesses can shed some light on the many lies that
you allege have been told.
    Today is the 23rd hearing our committee has held on the
Affordable Care Act. As I did at our previous hearing 2 weeks
ago, I want to recognize the importance of what has been
accomplished for the American people. And when I say the
American people, I mean both Republican and Democrat, I mean
all of America.
    The law went into full effect on January 1st, and now
millions of people are obtaining health insurance coverage they
did not have before. Some of them have never had healthcare
insurance. They are receiving critical medical care, and they
have the security of knowing they will not go bankrupt if they
get into an accident or get sick. This is, without a doubt, a
historic achievement.
    The law also put into place key protections for consumers.
Insurance companies are now prohibited from discriminating--
that is what I said, discriminating--against people with
cancer, diabetes, heart disease, and preexisting conditions.
Again, I am talking about our constituents, Americans, the ones
who pay taxes and work hard every day. Insurance companies may
not charge higher prices for women, and millions of people are
now receiving free preventative care. The President has made it
clear that he wants to keep people well because it is far
cheaper to keep them well than to treat them after they are
sick.
    There are also huge financial benefits. Health insurance
companies are now sending rebate checks to millions of people.
Since the law was passed, we have seen the lowest growth in
health care costs in 50 years. If we repeal the law today, it
would increase our deficit by more than 1.5 trillion--not
billion--trillion dollars.
    In terms of the security of the Web site, we received
testimony just 2 weeks ago from chief information security
officer of the CMS. She told us, and I quote, ``There have been
no successful security attacks on the FFM, and no person or
group has maliciously accessed personally identifiable
information,'' end of quote. I want to repeat that: No person
or group has maliciously accessed personally identifiable
information on the HealthCare.gov Web site.
    The chief information security officer also said that
following security testing in December, HealthCare.gov has, and
I quote, ``a clean bill of health,'' end of quote.
    Although no system is hack-proof, she said she is and I
quote, ``confident based on the recent security controls
assessment and the additional security protections in place
that the FFM is secure,'' end of quote.
    I want to thank the chairman for proposing that today's
hearing be held in executive session, a motion that I fully
support. The MITRE Corporation and the Department of Health and
Human Services have warned the committee repeatedly that some
of the security testing documents we have obtained contain
highly sensitive information and can provide a road map for
hackers and others seeking to do us harm. I think it is a
positive step that the committee is willing to hear from these
officials firsthand about their concerns. Conducting the
hearing in executive session will allow us to discuss this
sensitive information directly with the experts.
    As we have heard on numerous occasions from the
cybersecurity experts at MITRE and the Department, the security
control assessments contain information about cybersecurity
methods and the fundamental cyber architecture of
HealthCare.gov that, and I quote, ``transcends the specific
security control vulnerabilities which have been the focus of
news reports and the committee's public inquiry,'' end of
quote. Even when specific vulnerabilities identified by
security testing have been addressed, these experts warn that
publicly disclosing the security control assessments could
still jeopardize HealthCare.gov and other CMS data networks,
and again I hope our witnesses will shed light on that since
the chairman has alleged that so many people have been lying.
    I believe our goal as a committee should be to conduct
responsible oversight that provides the American public with
information necessary to understand the security of the
HealthCare.gov Web site, while at the same time protecting
sensitive information that could endanger the Web site's
functioning or compromise the personal information of the
American people.
    Let me conclude by thanking the officials testifying here
today.
    Dr. Charest, this is your second time before the committee
in as many weeks. Thank you for returning to address these
vital questions in closed session.
    Mr. Shomo, I understand that you are one of the engineers
responsible for conducting security testing of HealthCare.gov
on behalf of MITRE Corporation, and we thank you for being
here.
    As a nonprofit organization with a long history of running
federally funded research and development programs, MITRE is
known and respected for its objectivity and independence. We
appreciate everything you both are doing to remain vigilant and
protect the security of HealthCare.gov. Millions of American
families thank you for helping them to get access to lifesaving
care that they so desperately need.
    And with that I yield back.
    Chairman Issa. Thank you.
    I now ask unanimous consent that the document signed by
Marilyn Tavenner, which is the authority to operate, be placed
in the record. Without objection, so ordered.
    Pursuant to that document, which says that within 60 to
90--I will read it verbatim--conduct a full SCA test on the
FFM, including its three modules, E&E, FM, and PM, in a stable
environment where all security controls can be tested within 60
to 90 days of going live on October 1st.
    Based on this document, which declares known
vulnerabilities that must be tested and mitigated within 60 to
90 days, I now recognize the gentleman from Florida for a
motion.
    Mr. Mica. Mr. Chairman, so the Committee on Oversight and
Government Reform may proceed in executive session and continue
its business pursuant to House Rule XI(g)(2), I move that the
remainder of the hearing be closed to the public because the
disclosure of the testimony to be heard may compromise
sensitive law enforcement information.
    Chairman Issa. The question is on agreeing to the motion to
close the hearing. The clerk will call the roll.
    The Clerk. Mr. Issa?
    Chairman Issa. Yea.
    The Clerk. Mr. Issa votes aye.
    Mr. Mica?
    Mr. Mica. Aye.
    The Clerk. Mr. Mica votes aye.
    Mr. Turner?
    Mr. Turner. Aye.
    The Clerk. Mr. Turner votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    The Clerk. Mr. Duncan votes aye.
    Mr. McHenry?
    [No response.]
    The Clerk. Mr. Jordan?
    Mr. Jordan. Yes.
    The Clerk. Mr. Jordan votes aye.
    Mr. Chaffetz?
    Mr. Chaffetz. Aye.
    The Clerk. Mr. Chaffetz votes aye.
    Mr. Walberg?
    Mr. Walberg. Aye.
    The Clerk. Mr. Walberg votes aye.
    Mr. Lankford?
    Mr. Lankford. Yes.
    The Clerk. Mr. Lankford votes aye.
    Mr. Amash?
    Mr. Amash. Yes.
    The Clerk. Mr. Amash votes aye.
    Mr. Gosar?
    Mr. Gosar. Yes.
    The Clerk. Mr. Gosar votes aye.
    Mr. Meehan?
    Mr. Meehan. Aye.
    The Clerk. Mr. Meehan votes aye.
    Mr. DesJarlais?
    Mr. DesJarlais. Aye.
    The Clerk. Mr. DesJarlais votes aye.
    Mr. Gowdy?
    Mr. Gowdy. Yes.
    The Clerk. Mr. Gowdy votes aye.
    Mr. Farenthold?
    Mr. Farenthold. Yes.
    The Clerk. Mr. Farenthold votes aye.
    Mr. Hastings?
    [No response.]
    The Clerk. Mrs. Lummis?
    [No response.]
    The Clerk. Mr. Woodall?
    [No response.]
    The Clerk. Mr. Massie?
    Mr. Massie. Aye.
    The Clerk. Mr. Massie votes aye.
    Mr. Collins?
    Mr. Collins. Aye.
    The Clerk. Mr. Collins votes aye.
    Mr. Meadows?
    Mr. Meadows. Aye.
    The Clerk. Mr. Meadows votes aye.
    Mr. Bentivolio?
    Mr. Bentivolio. Aye.
    The Clerk. Mr. Bentivolio votes aye.
    Mr. DeSantis?
    Mr. DeSantis. Aye.
    The Clerk. Mr. DeSantis votes aye.
    Mr. Cummings?
    Mr. Cummings. Yes.
    The Clerk. Mr. Cummings votes aye.
    Mrs. Maloney?
    Mrs. Maloney. Aye.
    The Clerk. Mrs. Maloney votes aye.
    Ms. Norton?
    [No response.]
    The Clerk. Mr. Tierney?
    Mr. Tierney. Aye.
    The Clerk. Mr. Tierney votes aye.
    Mr. Clay?
    [No response.]
    The Clerk. Mr. Lynch?
    Mr. Lynch. Aye.
    The Clerk. Mr. Lynch votes aye.
    Mr. Cooper?
    Mr. Cooper. Aye.
    The Clerk. Mr. Cooper votes aye.
    Mr. Connolly?
    [No response.]
    The Clerk. Ms. Speier?
    [No response.]
    The Clerk. Mr. Cartwright?
    Mr. Cartwright. Aye.
    The Clerk. Mr. Cartwright votes aye.
    Ms. Duckworth?
    Ms. Duckworth. Aye.
    The Clerk. Ms. Duckworth votes aye.
    Ms. Kelly?
    [No response.]
    The Clerk. Mr. Davis?
    Mr. Davis. Aye.
    The Clerk. Mr. Davis votes aye.
    Mr. Welch?
    [No response.]
    The Clerk. Mr. Cardenas?
    [No response.]
    The Clerk. Mr. Horsford?
    [No response.]
    The Clerk. Ms. Lujan Grisham?
    [No response.]
    Chairman Issa. The clerk will report the tally.
    The Clerk. Twenty-seven ayes, zero noes.
    Chairman Issa. There being 27 ayes and zero noes, the
motion is agreed to. The clerk will now clear the room. Only
Members of Congress, cleared staff, the witnesses, and their
cleared counsels may remain in the hearing room. The committee
stands in a short recess.
    [Whereupon, at 10:27 a.m., the committee proceeded to
closed session.]


                               APPENDIX
                              ----------


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
